November 30, 1999

CLARENCE E. LEWIS, JR
CHIEF OPPERATING OFFICER
 AND EXECUTIVE VICE PRESIDENT

NORMAN E. LORENTZ
SENIOR VICE PRESIDENT,
 CHIEF TECHNOLOGY OFFICER

SUBJECT:	 Audit Report - Year 2000 Initiative: Mail Processing Equipment, Critical
          Suppliers, Embedded Chips, and Facilities (Report Number IS-AR-00-001)

This report presents the results of the Office of Inspector General’s review of the Postal
Service Year 2000 (Y2K) Initiative regarding progress in addressing mail processing
equipment, critical suppliers, embedded chips, and facilities. We concluded that the
Postal Service has developed and implemented an adequate process to ensure its
critical mail processing equipment will function properly in the new millennium.
However, we believe Postal Service management needs to: 1) place more emphasis on
the issue of supplier contingency planning and establish a no-later-than date to activate
these plans for its at-risk critical suppliers and 2) closely monitor deployment of Y2K-
remediated software to ensure the correct version of such software is being installed in
mail processing equipment prior to the Year 2000.

Postal management commented on this report and concurred with the findings and
recommendations. Management's comments and our evaluation of these comments
are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact
             ,              , or me at (703) 248-2300.


/Signed/
Billy J. Sauls
Assistant Inspector General
 for Employee

Attachment

cc: 	 Richard D. Weirich
      John R. Gunnels
Y2K Initiative: Suppliers, Mail Processing            IS-AR-00-001
 Equipment, Facilities, and Embedded Chips

                                  TABLE OF CONTENTS
Part I


Executive Summary
                                      i


Part II


Introduction
   Background                                           1

   Objective, Scope, and Methodology                    2

   Prior Audit Coverage                                 2



Audit Results


   Critical Suppliers                                   4

   Recommendations                                      6
   Management’s Comments                                6

   Evaluation of Management’s Comments                  6



   Mail Processing Equipment                            7

   Recommendation                                      16
   Management’s Comments                               16 

   Evaluation of Management’s Comments                 16 



   Technology Dependent Facilities                     17 



Appendices
   Appendix A – Prior Audit Coverage                   19 

   Appendix B – Management Comments                    21 

Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                                  EXECUTIVE SUMMARY
Introduction                 This is our tenth report in a series of Office of Inspector
                             General (OIG) reports regarding the United States Postal
                             Service Year 2000 (Y2K) Initiative. See the Prior Audit
                             Coverage section on page 19 for details on these prior
                             reports. This report addresses our review of the
                             noninformation system areas of the Postal Service Y2K
                             Initiative. It focuses on the Postal Service’s Y2K activities
                             relative to its mail processing equipment, facilities, external
                             suppliers, and embedded computer chips.

Results in Brief	            It is our view that the Postal Service has developed and
                             implemented an adequate process to ensure its critical mail
                             processing equipment will function properly in the new
                             millennium. Having said that, we also believe Postal
                             Service management needs to closely monitor deployment
                             of Y2K-remediated software to ensure the correct version of
                             such software is being installed in mail processing
                             equipment prior to the Year 2000.

                             In our September 1999 status report (see Appendix A), we
                             characterized the Postal Service’s progress in making its
                             critical facilities Y2K ready as limited. However, based upon
                             our review of the Postal Service’s efforts to date, we believe
                             substantial progress has been made, and an adequate
                             process is in place to make these facilities, including mail
                             processing equipment, Y2K-ready before the new year.
                             Furthermore, the Postal Service’s embedded chips program
                             will likely be successful with no major problems surfacing in
                             an assessment of its facilities’ building systems and a
                             representative assessment of its mail processing
                             equipment.

                             On the other hand, we believe the Postal Service needs to
                             place more emphasis on the issue of supplier contingency
                             planning and establish a no-later-than date to activate these
                             plans for its at-risk critical suppliers (i.e., suppliers who may
                             not be Y2K ready or who have already reported their
                             inability to become Y2K ready). Supplier contingency
                             planning includes such alternative supplier arrangements as
                             a process change, a work-around, stockpiling supplies,
                             identifying alternative suppliers or some combination
                             thereof.



                                                    i
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                             Overall, with less than 31 days remaining until
                             January 1, 2000, the Postal Service appears to have
                             positioned itself to meets its Y2K objectives in the
                             noninformation systems areas.

Summary of                   We recommended the Y2K Supplier Management Office
Recommendations              coordinate with the vice president, Purchasing and
                             Materials, to prepare supplier contingency plans that include
                             alternative supplier arrangements for at-risk critical suppliers
                             (i.e., suppliers who may not be Y2K ready or who have
                             already reported their inability to become Y2K ready) and be
                             prepared to activate those plans no later than
                             November 30, 1999. We also recommended the Program
                             Management Office request the chief operating officer and
                             executive vice president arrange to closely monitor and spot
                             check mail processing equipment software deployment
                             actions in the field to ensure installation of the proper, Y2K
                             compliant software. Management’s comments are included
                             in their entirety in Appendix B.

Summary of                   Management concurred with the recommendations and
Management’s                 stated that this report set the standard for accurate,
Comments                     balanced, and useful audit reporting. With regard to
                             recommendation 1, management offered that activation of a
                             given plan be based upon a decision by the responsible
                             business manager(s) and not by an “arbitrary” date.
                             Further, in regards to recommendation 2, management
                             indicated that they were actively reviewing progress reports
                             at various management levels.

Overall Evaluation of        Management’s comments and subsequent discussions
Management’s                 were responsive to the recommendations. However, with
Comments                     regard to recommendation 1, we are apprehensive about
                             management not establishing a specific date to activate
                             supplier contingency plans because of the risk associated
                             with potential failures.




                                                   ii
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                                             INTRODUCTION
Background                        The Y2K problem results from the way dates are recorded
                                  and calculated in computer systems. In the past, to
                                  conserve electronic data storage, systems typically used
                                  two digits to represent the year, such as ‘98’ representing
                                  1998. With this two-digit date format, however, the year
                                  2000 is indistinguishable from year 1900, 2001 from 1901,
                                  and so on. As a result of this ambiguity, systems that use
                                  dates to perform calculations may fail after 1999. This Y2K
                                  computing problem poses significant risks that, if not
                                  adequately addressed, could have serious consequences.
                                  For example, the delivery of almost 200 billion pieces of
                                  mail could be at-risk if Postal Service systems and
                                  equipment do not function properly. Ensuring that mail
                                  delivery is not disrupted at the turn of the century is no small
                                  undertaking in such a large and diverse organization as
                                  Postal Service.

                                   One of the major concerns of the Postal Service’s Y2K
                                   initiative is the noninformation systems area. The
                                   noninformation systems initiative includes inventorying,
                                   assessing, remediating, and testing thousands of mail
                                   processing equipment components, thousands of external
                                   suppliers, and hundreds of facilities which house thousands
                                   of building systems. The Postal Service’s testing of mail
                                   processing equipment includes unit testing1 as a part of its
                                   Y2K assurance process and testing equipment in an
                                   operational environment. The Y2K initiative also includes
                                   deploying Y2K solutions for the mail processing equipment.
                                   In addition, reviewing embedded chips in mail processing
                                   equipment and the building systems of technology-
                                   dependent facilities are critical issue areas that the Postal
                                   Service must successfully address to ensure that it is ready
                                   for the Year 2000.




1
 Unit testing is done on each type of mail processing equipment after the software is remediated to verify that logic
within a unit test module is accurate and reliable and that no errors were created during remediation.


                                                      1
                      This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                             Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


Objective, Scope, and         We focused on several objectives in this phase of our
Methodology                   continuing audit coverage of the Y2K Initiative. They
                              include determining:

                             ! 	 What  the Postal Service’s plans are for identifying and
                                 turning to alternative suppliers if its regular, critical
                                 suppliers do not become Y2K compliant,

                             ! 	 What    the Postal Service is doing to ensure compliant
                                 versions of mail processing equipment software – new
                                 and/or remediated – are properly deployed and installed
                                 in field facilities before January 1, 2000,

                             ! 	 Ifthe Postal Service’s critical mail processing operations,
                                 specifically its mail processing equipment, are vulnerable
                                 to Y2K failures,

                             ! 	 Ifcritical technology-dependent facilities have been
                                 adequately assessed for Y2K compliance and whether
                                 the Postal Service can make the building systems within
                                 those facilities compliant before January 1, 2000, and

                             ! 	 The   status of the Postal Service’s efforts to address
                                 embedded chips in mail processing equipment and
                                 facilities’ building systems.

                             We conducted audit work between February 1999 and
                             October 1999 in accordance with generally accepted
                             government audit standards and included tests of internal
                             controls as were considered necessary under the
                             circumstances. The data in this report was gathered at
                             headquarters and field locations by sending survey
                             questionnaires, reviewing related Y2K documentation and
                             through discussions with responsible Postal Service
                             officials, as necessary. In addition, we observed field tests
                             at various postal facilities. This report chronicles the
                             activities and progress of specific noninformation systems
                             Y2K areas through September 1999.




                                                   2
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips




Prior Audit Coverage 	 During our continuing coverage of the Postal Service’s Y2K
                       initiative, we issued nine reports related to the Postal
                       Service’s Y2K Initiative. This included a letter report
                       addressing Y2K contract indemnification matters and the
                       OIG and General Accounting Office joint hearing before
                       three House subcommittees on various Y2K issues.
                       Appendix A contains a more detailed discussion of the
                       reports.




                                                   3
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                                       AUDIT RESULTS
Critical Suppliers           The Postal Service is completing assessments of critical
                             external suppliers and is monitoring the Y2K readiness
                             status of those suppliers it expects to be Y2K ready. The
                             Postal Service is also continuing efforts to contact suppliers
                             who have yet to respond to inquiries regarding their Y2K
                             readiness status and plans to identify alternative supplier
                             arrangements (i.e., supplier contingency plans), in the event
                             at-risk suppliers are not Y2K ready or do not respond.
                             Supplier contingency planning would include various options
                             such as a process change, a work-around, stockpiling
                             supplies, identifying alternative suppliers or some
                             combination thereof. While we applaud the Postal Service’s
                             recognition of the problem, we have concerns that its
                             continuing delay in developing such supplier contingency
                             plans and establishing a “drop-dead” date to activate such
                             plans may prove detrimental to the Postal Service’s ability to
                             obtain supplies and services in the Year 2000.

                             Suppliers include external organizations the Postal Service
                             uses to support its core business processes. They include
                             finance, marketing, mail operations, airline, maritime, rail
                             and trucking, information technology and utility entities;
                             facilities’ lessors; and airports. The Postal Service has no
                             control over the Y2K readiness of its suppliers. However, it
                             implemented procedures to assess its suppliers’ readiness
                             status in September 1998. Based upon that assessment,
                             the Postal Service classified the Y2K readiness status of its
                             suppliers as:

                                 •   ‘Are Y2K Ready,’
                                 •   ‘Expected to be Y2K Ready,’
                                 •   ‘Not on Target to be Y2K Ready’ or
                                 •   ‘Will not be Y2K Ready.’

                             There is also a fifth category – suppliers who have not
                             responded to the Postal Service’s inquiries.

                             As of September 30, 1999, the Postal Service had identified
                             1004 Y2K critical suppliers. The Postal Service had
                             assessed 577 (57 percent) of these suppliers as ‘Y2K
                             Ready’ and 379 (38 percent) as ‘Expected to be Y2K
                             Ready’. Twelve suppliers had not responded to Postal
                             Service inquiries. Therefore, at this point in time, the Postal


                                                   4
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                             Service can only depend on those 57 percent that reported
                             their status as ‘Y2K Ready’ – the remaining 38 percent,
                             though probable, need close monitoring. The Postal
                             Service will continue to monitor the status of those critical
                             suppliers ‘Expected to be Y2K Ready’ and will try to obtain
                             information from unresponsive critical suppliers, with the
                             expectation that the number of ‘Y2K Ready’ suppliers will
                             increase. When we asked a postal official what their
                             confidence level was that suppliers ‘Expected to be Y2K
                             Ready’ will in fact be ready, they replied that the Postal
                             Service is “employing due diligence,” but “nothing is
                             guaranteed.”

                             For those 36 critical suppliers who are ‘Not Expected to be
                             Ready’ or ‘Will not be Ready’ and any of the 379 suppliers
                             the Postal Service is monitoring that it finds may not be
                             ‘Y2K Ready,’ the Postal Service needs to develop supplier
                             contingency plans that identify alternative supplier
                             arrangements. However, the Postal Service has no process
                             in place to ensure that alternative suppliers (a critical part of
                             a supplier contingency plan) will be identified or ready
                             should their services be needed. The current plan is for the
                             Supplier Management Office to report to the affected
                             managers the critical suppliers (1) with a high risk of failure,
                             (2) who have not responded, and (3) who are not expected
                             to be or are not Y2K ready. However, it is left to the
                             responsible managers to develop contingency plans or to
                             request alternative suppliers.

                             The Supplier Management Office indicated that contingency
                             planning falls under the Postal Service’s Business
                             Continuity Planning process and that the timeliness for
                             putting contracts in place for alternative suppliers will be
                             governed by the business continuity plan. However, our
                             review of the business continuity plan disclosed no timelines
                             for identifying alternative suppliers nor a supplier
                             contingency plan. Our concern is that the Postal Service
                             has not established a control point to ensure that, by a
                             specific date, managers identify and are ready to activate
                             alternative suppliers arrangements. Such actions should be
                             spelled out in a supplier contingency plan developed by the
                             field managers and should contain a “drop-dead” date for
                             activating those supplier contingency plans.




                                                   5
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


Recommendation 1             Therefore, we recommend the Supplier Management Office
                             coordinate with the vice president, Purchasing and
                             Materials, to assign oversight responsibility at the
                             Headquarters level to monitor and ensure that its managers:
                             (1) Prepare supplier contingency plans covering all at-risk
                                 suppliers.
                             (2) Activate supplier contingency plans by November 30,
                                 1999.

Management’s                 Postal management concurred with the need for supplier
Comments                     contingency plans but offered that activation of a given plan
                             be based upon a decision by the responsible business
                             manager(s) and not by an “arbitrary” date. They indicated
                             that managers would activate such plans as soon as
                             credible evidence is received regarding the failure or
                             pending failure of a supplier. They did agree to have such
                             plans approved and ready by November 30, 1999.

Evaluation of                The logic behind Postal management’s argument regarding
Management’s                 our first recommendation appears sound, however, we are
Comments                     apprehensive because (1) the supplier issue is complex and
                             year-end failures could affect Postal operations nationwide,
                             and (2) our recent reviews of the Postal Service’s supplier
                             risk assessments and business continuity and contingency
                             planning found risks were understated and many plans to
                             be incomplete and not integrated with other Y2K program
                             initiatives. Nonetheless, we will view management’s
                             position as responsive with regard to the activation issue,
                             given the understanding that Postal management has fully
                             assessed its supplier situation and is willing to accept the
                             increased risk this approach entails.




                                                   6
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                                               IS-AR-00-001
 Equipment, Facilities, and Embedded Chips




Mail Processing                     The Postal Service has made substantial progress in
Equipment                           developing and implementing a process to ensure its mail
                                    processing operations are not interrupted by Y2K equipment
                                    failures after the start of the new millennium. The Postal
                                    Service also developed and put into place a plan to ensure
                                    that all Y2K-compliant software solutions that control its mail
                                    processing equipment are deployed and properly working
                                    prior to January 1, 2000.

                                    The Postal Service utilizes 38 critical and unique types2 of
                                    mail processing equipment to process and move the mail.
                                    Much of this equipment is controlled by computer programs
                                    (i.e., software) that enable the equipment to process mail
                                    quickly and more efficiently. In addition, some equipment
                                    may contain embedded chips (computer chips) that monitor,
                                    regulate or control its operation. These programs and
                                    embedded chips can be affected by the Y2K problem.

                                    The graph below shows the distribution of critical and
                                    unique types of mail processing equipment in Postal Service
                                    operations:


                                           Processing &

                                            Distribution
                                          25

                                              Center



                                         Retail Vending                   10



                                        Bulk Mail Center

                                                               3



                                    As discussed in our September 20, 1999, report on the
                                    status of Postal Service Year 2000 readiness, the Postal
                                    Service planned and successfully completed five
                                    operational Y2K readiness tests on mail processing
                                    equipment as of May 1999. As part of this audit, we
                                    reviewed the results of those five tests, interviewed
                                    personnel involved in and responsible for the tests, and we
                                    also observed one of the tests. Finally, we evaluated the



2
    These 38 unique types actually represent thousands of pieces of equipment in postal facilities nationwide.


                                                         7
                         This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                                Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                                                       IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                             Postal Service’s plans to test mail processing equipment at
                             16 additional sites in an operational environment and have
                             observed three tests to date.

Initial Operational          The Postal Service conducted two initial operational tests at
Testing                      the Atlanta Bulk Mail Center in August 1998 and February
                             1999; two at the Tampa Processing and Distribution Center
                             in August 1998 and March 1999; and one test of retail
                             vending systems in Merrifield, Virginia in December 1998.
                             During the initial operational tests, the Postal Service tested
                             60 percent of its critical types of mail processing equipment.
                             The following chart shows the equipment tested and the
                             total equipment by type:
                                                                                                                        38
                                                                                          25                23
                                                                                   15
                                                                     10
                                         3        3            5


                                 Bulk Mail Center Retail Vending                 Processing &                All
                                                    Systems                       Distribution
                                                                                    Center
                                                      Tested                                        Total



                             Rollover tests were conducted at three different facilities.
                             The following chart shows the “rollover dates” and the
                             locations where the tests were conducted.

                                        Rollover Test Dates for Operational Tests




                                                  USPS Fiscal Year    New Year          Leap Year           Leap Year
                               Tampa P&DC
                                  Test                                    X                X                     X

                               Atlanta BMC
                                   Test                 X                 X                X                     X

                              Merrifield Retail
                                    Test                X                 X                X                     X



                                                   8
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                              Processing and Distribution Center Testing. During the
                              two operational tests in Tampa, Florida, the Postal Service
                              tested end-to-end processing of letter mail. The Postal
                              Service also did additional tests of flats and parcel sorting
                              equipment using test decks and live mail in a simulated
                              Y2K production environment. See table above for rollover
                              test criteria.

                             The Postal Service reported some Y2K problems during its
                             first operational test, but indicated they will be able to work
                             around or correct the problems and process and deliver mail
                             after December 31, 1999. Our review of the test reports
                             and our observation of the March 1999 test disclosed no
                             evidence of Y2K problems that the Postal Service could not
                             correct or work around.

                              Bulk Mail Center Testing. During the two operational
                              tests in Atlanta, Georgia, the Postal Service tested mail
                              processing equipment in a simulated Y2K production
                              environment using test decks.

                             These tests identified some non-Y2K problems, but Postal
                             Service officials again believe they can be worked around or
                             corrected and that mail processing systems at bulk mail
                             center sites will continue to operate after
                             December 31, 1999. During our review of the test reports,
                             we did not find evidence of any Y2K problems.

                              Retail Vending Testing. The Postal Service tested the
                              retail vending systems during a weeklong operational test at
                              its Merrifield, Virginia facility. It also duplicated and
                              monitored the flow of retail data from transaction entry to
                              Postal Service accounting and marketing systems to
                              validate whether data flowed correctly from the Engineering
                              sphere of control to other organizations.

                             The Postal Service reported some problems during this
                             operational test, but added they will not interfere with mail
                             operations after December 31, 1999. Postal officials
                             ordered additional research to determine if these problems
                             were Y2K-related, and if so, how critical they are to
                             continued operations. Our review of the test results
                             indicated that a majority of the problems were related to a
                             Unix operating system problem that could occur in the year
                             2038 and, as such, would not require immediate attention.


                                                   9
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                                  IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                             However, one of the problems was Y2K-related -- an error
                             was detected while processing a test transaction on
                             simulated February 28, 2000, of a credit card with an
                             expiration date of “3/00” (i.e., March 2000). To correct this
                             problem, the Postal Service modified the affected software
                             and successfully retested the transaction.

                             Although the Postal Service’s initial operational tests were
                             successful overall, we had concerns as to whether these
                             five initial tests, conducted at only three sites nationwide,
                             could provide the Postal Service with a satisfactory level of
                             assurance that all mail processing equipment will be Y2K
                             compliant. We expressed these concerns to the Postal
                             Service during our audit and in testimony before a joint
                             congressional subcommittee on the Postal Service’s Y2K
                             Initiative.




                             OIG Representative Observes Postal Service Employee Input Test Barcode
                             Data During Successful Y2K Test of a ‘Small Parcel and Bundle Sorter’


Additional Operational       The Postal Service subsequently scheduled 16 additional
Testing                      operational tests at airmail facilities/centers, bulk mail
                             centers, processing and distribution facilities/centers, and
                             remote encoding centers across all 11 Postal Service areas
                             between July and October 1999. During these additional
                             operational tests, the Postal Service plans to test 19 of the
                             38 types of critical mail processing equipment. These plans
                             will cover the new-year rollover, the two leap year rollovers
                             and, time permitting, the Postal Service fiscal year rollover.


                                                   10
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips



                             One of the tests the Postal Service conducted was an “Early
                             Warning Test” at the Northern Virginia Processing and
                             Distribution Center in Merrifield, Virginia. During this test,
                             the Postal Service set dates four months into the future
                             (e.g., on August 31, 1999, the simulated date was
                             December 31, 1999). The test involved processing live mail
                             and included testing 15 of the 38 critical types of mail
                             processing equipment and six noncritical types.

                             In September, the Postal Service moved the date forward
                             an additional month (i.e., simulated February 2000) to test
                             the leap year rollover dates (i.e., February 28 to 29, 2000
                             and February 29, 2000 to March 1, 2000). The Postal
                             Service anticipates the results of these tests will bolster its
                             confidence that service will continue without disruptions.

                             We believe that these tests, and especially the “Early
                             Warning Test,” may provide the Postal Service reliable
                             indicators as to how well its mail processing equipment in all
                             its facilities nationwide will function after January 1, 2000.




                                                   11
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                                       IS-AR-00-001
 Equipment, Facilities, and Embedded Chips




                                                   Friday, December 31, 1999 1151 PM




                                             Successful Rollover to Saturday, January 1, 2000

                                         Fixed Mechanization Processing Control System –
                                                Parcel Sorting Machine Computer

                                These screens illustrate a successful rollover from December 31, 1999, to
                                 January 1, 2000, for parcel sorting transactions. The system performed
                                  normally and there were no Y2K-related interruptions during this test.




                                                   12
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                                    IS-AR-00-001
 Equipment, Facilities, and Embedded Chips



Summary of Mail              By the time the Postal Service completes its additional
Processing Equipment         testing in October 1999, it is scheduled to have
Testing                      operationally tested 26 of its 38 types of critical mail
                             processing equipment at 19 different sites. Seventy percent
                             of the critical equipment types tested during the initial tests
                             will be included in the second round of tests. The total
                             numbers and types of critical equipment and equipment
                             tested in an operational environment are shown in the
                             following chart:
                                                                                25
                                                                       18


                                                             10

                                                         5
                                          3    3

                                          BMC           Vending        P&DC

                                              Tested Equipment              Total Equipment



                             The Postal Service is scheduled to unit test and
                             independently verify all of its 38 types of critical mail
                             processing equipment by October 1999.

                             A critical factor in the success of mail processing operations
                             is the successful and timely deployment of proven Y2K
                             software solutions to all mail processing facilities.

Deployment of Y2K            As of September 30, 1999, the Postal Service reported that
Compliant Solutions          it had deployed Y2K-compliant software solutions for 36 of
                             its 38 types of critical mail processing equipment. However,
                             the Postal Service is scheduled to complete deployment of
                             the compliant versions of its critical mail processing
                             equipment software by November 1999.

                             The deployment of Y2K compliant software solutions does
                             not necessarily in and of itself guarantee a problem-free
                             mail processing environment. The Postal Service has to
                             assure itself that the software solutions it deploys to the mail
                             processing facilities are installed and are properly
                             configured. We discussed these concerns with Postal
                             Service management and learned they had the same
                             concerns.

                                                   13
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips



                             We specifically asked Postal Service officials whether the
                             Postal Service allowed field sites to develop and apply local
                             software fixes and were told they did not. However, when
                             we asked these same officials whether they believed local
                             fixes did in fact exist, they responded “absolutely.” In
                             addition, we found a situation where some facilities had not
                             yet implemented the compliant version of a critical type of
                             equipment – the Fixed Mechanization Process Control
                             System.

                             In July 1999, we talked with a Postal Service employee,
                             who works primarily with the Fixed Mechanization Process
                             Control System. He stated that at least three facilities were
                             still running a noncompliant version of that software in July
                             even though the compliant version was in place for the
                             February 1999 test at the Atlanta Bulk Mail Center and was
                             deployed in May 1999. In addition, during one of our test
                             observations, we noted that one type of critical mail
                             processing equipment being tested did not have the
                             compliant version of the software; however, it did pass all
                             the test criteria.

                             To address this potential problem, Postal Service
                             management instituted a process in July 1999 whereby
                             managers at 383 sites are required to certify that all mail
                             processing equipment and retail vending equipment is
                             running Y2K compliant software. The process provides
                             managers with a list of the software and operating system
                             that should be running on each system and procedures to
                             identify the version of software and operating system on
                             each piece of equipment. It also provides managers with a
                             monthly reporting timeline to complete and provide reports
                             and surveys regarding the compliance and configuration
                             status of its software and equipment. The second report,
                             delivered in late September 1999, indicated that only 199
                             sites (52 percent) had installed all distributed and compliant
                             software, 134 sites (35 percent) were noncompliant, and 50
                             sites did not respond to the status report. Additional reports
                             are required monthly through December 17, 1999.

                             The process the Postal Service has implemented should
                             ensure that the compliant versions of software and properly
                             configured systems are installed at applicable mail
                             processing facilities. However, without enhanced oversight


                                                   14
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                             that includes some form of installation verification, the
                             Postal Service could continue to have sites that are
                             noncompliant, or are improperly configured.

Embedded Systems –           In addition to concentrating on making hundreds of
Mail Processing              computer programs that process Postal Service data and
Equipment                    provide the “brains” behind much of the mail processing
                             equipment Y2K-compliant, the Postal Service also needed
                             to address the issue of embedded computer chips.
                             Embedded chips may monitor, regulate or control heating
                             and air conditioning systems, elevators, security systems,
                             entry systems, lights, and mail processing equipment. In a
                             February 1999 joint congressional hearing on the Y2K
                             issue, the Chairman of the House Subcommittee on
                             Technology wanted to know what the Postal Service was
                             doing about embedded chips.

                             In April 1999, senior Postal Service management directed
                             its managers to evaluate embedded systems in its mail
                             processing equipment and take appropriate action.
                             According to Postal Service officials, they have been
                             routinely assessing the embedded systems for all 38 critical
                             mail processing equipment types as part of its Y2K initiative.
                             With regard to Postal Service policy, a review of embedded
                             systems (1) must include an evaluation of risk/cost/benefit,
                             (2) must guarantee the safety and health of employees and
                             customers, and (3) must ensure effective business
                             processes. The Postal Service then assessed 17 of its 38
                             types of critical mail processing equipment, representing a
                             cross section of bulk mail center, processing and distribution
                             center, and retail vending systems. This review entailed
                             inventorying its equipment, determining if embedded chips
                             were installed, identifying the chip according to
                             manufacturers’ parts list, and checking with the appropriate
                             manufacturer, via their Internet web sites, to determine the
                             Y2K status of the chips. The results of this review indicated
                             all chips identified were Y2K compliant. The Postal Service,
                             relying on the expertise of a widely known Y2K consulting
                             group, noted only those systems that perform date/time
                             sensitive processes, not necessarily those with an
                             embedded chip, need be evaluated.

                             Postal Service officials indicated the assessment provided
                             sufficient information to consider their embedded chip effort
                             a success. In regard to the remaining 21 types of


                                                   15
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


                             equipment not tested, Postal Service officials indicated the
                             17 types of equipment they examined represent a cross-
                             section of critical processes. Therefore, the Postal Service
                             believes the chances of failure are minimal and consider it
                             an acceptable level of risk.

                             We reviewed the documentation pertaining to the 17
                             systems the Postal Service assessed. We believe the
                             documentation supports their conclusion as to the Y2K
                             readiness of the equipment.

Recommendation 2             We recommend the Program Management Office request
                             the chief operating officer and executive vice president
                             provide additional oversight in the form of implementation
                             checks to ensure that field site managers install the
                             compliant versions of the software and are running properly
                             configured mail processing equipment.

Management’s                 Postal management concurred with this recommendation
Comments                     and indicated they are actively reviewing progress reports at
                             various management levels. They also indicated that Year
                             2000 program management personnel conduct spot checks
                             to confirm that data is being collected and reported
                             accurately.

Evaluation of                Postal management concurred with our second
Management’s                 recommendation, but the response was unclear in that it did
Comments                     not describe actions agreed to at our exit conference. A
                             follow-up clarification discussion was held with Postal
                             officials responsible for implementing this recommendation.
                             They indicated that various Headquarters teams and
                             individuals would be conducting remote systems
                             evaluations and making site visits to review reports and
                             sample-test various pieces of automated mail processing
                             equipment to verify Year 2000 compliance. In our view, the
                             corrective actions described in the clarifying language
                             above are reasonable and satisfy the intent of the
                             recommendation, and we consider the issue closed.




                                                   16
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips




Technology-                  To determine whether the Postal Service is adequately
Dependent Facilities         assessing its critical facilities, we reviewed the process it is
                             using to assess those facilities. We also assessed the
                             Postal Service’s progress towards making its facilities and
                             building systems Y2K-ready and how it is addressing the
                             building systems for embedded chips.

                             In January 1999, the Postal Service defined the facilities
                             that it planned to assess as those critical facilities that
                             process 95 percent of the mail and where any failure would
                             cause the most significant problems in processing mail. As
                             a result, the Postal Service initially identified 353 facilities
                             needing assessments. This process involves inventorying
                             each facility, identifying all critical building systems within,
                             and assessing their Y2K readiness. A facility is not
                             considered Y2K compliant until all of its key components
                             (i.e., its critical building systems) are Y2K compliant.

                             The components the Postal Service is assessing include the
                             embedded systems the Building Owners and Managers
                             Association International guide lists as examples to assess.
                             These components include automated plant control
                             systems, building utilities and services, communications
                             systems, elevator and escalator systems, fire control
                             systems, HVAC systems, lighting systems, postal
                             equipment, security systems, and vehicle maintenance
                             systems; these include 94 components.

                             It should be noted that the most difficult and time consuming
                             part of determining the Y2K readiness of these facilities is
                             identifying and assessing the critical building systems within
                             each facility. To identify and assess the building systems
                             for Y2K readiness and to track and report on their status,
                             the Postal Service contracted with a vendor and established
                             a Technical Support and Analysis Center (the Center). The
                             Technical Support and Analysis Center staff use a
                             specialized software product to access centralized
                             compliance data on various manufacturers’ equipment (i.e.,
                             building systems) that provides for a component by
                             component analysis of microprocessor-based functions.
                             The product allows the Postal Service to quickly identify and
                             track the compliance status of its building systems and
                             reduces the need to independently determine the
                             compliance status from manufacturers directly.


                                                   17
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips



                             In our last status report, using data as of May 31, 1999, we
                             reported 353 critical facilities. The number as of
                             October 7, 1999, was 390 – an increase of 37 facilities.
                             Also, 78 percent (305) of these critical facilities were
                             considered Y2K ready.

                             As of July 23, 1999, the critical facilities’ baseline was fixed
                             at 390 and the number of critical building systems within
                             those 390 facilities has gone from 623 in July to 1765 by
                             September 30, 1999 – reflecting the identification of
                             additional systems as each facility assessment is
                             completed. Furthermore, according to Postal Service
                             officials, 89 percent of those 1765 critical building systems
                             have been resolved (i.e., the building system has been
                             retired, worked-around, repaired, replaced or upgraded) as
                             of September 30, 1999.

                             According to the Postal Service, it has been assessing
                             embedded chips as an integral part of assessing its critical
                             facilities and building systems. The vendor doing the
                             inventory and technical assessments has Y2K Embedded
                             Technical Analysts on its staff. According to the Postal
                             Service, they are an integral part of the team that does the
                             inventories and inherently look for problems with embedded
                             chips.

                             We visited the Technical Analysis and Support Center and
                             reviewed the compliance determination process. Based
                             upon our review of that process and through discussions
                             with Center personnel, we are satisfied that the Postal
                             Service is adequately assessing its facilities. The Postal
                             Service also is adequately assessing its facilities for
                             potential Y2K embedded systems issues.




                                                   18
                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips



                       PRIOR AUDIT COVERAGE SYNPOSIS
The OIG and General Accounting Office (GAO) established a joint partnership in the fall
of 1998 to work on Y2K issues which led to February 1999 testimony before three
House Subcommittees. The Inspector General testimony on the Postal Service Y2K
Initiative (Report No. IS-TR-99-001 dated February 23, 1999), addressed major
challenges facing the Postal Service. These included: developing and implementing a
business continuity and contingency plan; determining whether external suppliers and
Postal facilities are Y2K ready; deploying solutions and testing mail processing
equipment; and reviewing, correcting, and testing information systems, data exchanges,
and information technology infrastructure. The GAO delivered testimony entitled “Year
2000 Computing Crisis: Challenges Still Facing the U.S. Postal Service” (GAO/T-AMID-
99-86, dated February 23, 1999), which addressed Y2K operational issues similar to
those presented in the Inspector General testimony.

In September 1999, we issued a Y2K report entitled “Year 2000 Business Continuity
and Contingency Planning: Initiation and Business Impacts” (Report Number TR-AR-
99-002), dated September 29, 1999. This report is the first in a series of reports we
plan to issue to address specific business continuity planning and recovery
management efforts. The report addresses the overall progress the Postal Service has
made, the effectiveness of the management structure and strategy for business
continuity planning, and the adequacy of the Postal Service’s assessment of the
potential business impacts resulting from Y2K disruptions. We made several
recommendations, which will help the Postal Service strengthen its strategy for reducing
potential Y2K disruptions.

In September 1999, we issued a Y2K report entitled “Year 2000 Initiative: Status of
Postal Service Year 2000 Readiness” (Report Number IS-AR-99-002, dated September
20, 1999). In that report we provided the May 1999 status of Postal Service Y2K
initiatives relating to the readiness of information systems, data exchanges, contingency
plans, mail processing equipment, suppliers, facilities, business continuity plans and
testing. We noted that the Postal Service had made varying levels of progress in the
area of component contingency plans and limited progress in the areas of facilities,
business continuity plans and recovery management planning, external suppliers and
information systems readiness testing. We reported that the Postal Service is actively
engaged in accomplishing these Y2K tasks.

In July 1999, we issued a Y2K report entitled "Year 2000 Initiative: Review of
Administration Management" (Management Advisory Report No. FR-MA-99-002, dated
July 7, 1999). Among the more significant issues we noted were that adequate controls
were not always in place to monitor contractor activities, information had not always
been provided to Integrated Business Systems Solutions Center personnel to help in
controlling Y2K resources, and work products provided by contractor personnel were
not always timely or adequate. We also noted issues with unnecessary layers of

                                                  19                                     Appendix A

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips


contractor management, numbers or expertise of contractor personnel, security
clearances, and deviations from Postal Service travel regulations granted to one
contractor. Postal Service management concurred with seven of our eight suggestions
for opportunities to save resources.

In February 1999, we issued a Y2K report entitled “Year 2000 Initiative: Program
Management Reporting” (Report No. IS-AR-99-001, dated February 18, 1999) that
addressed quality and reliability of Y2K information reported to senior managers. We
found that Y2K briefings and reports to senior management were not always complete,
consistent, or clear. Y2K briefings did not include a standard report on the overall
status of Y2K progress and were not provided at regularly scheduled intervals. As a
result, senior managers were not always able to use the information to monitor Y2K
progress and make timely and informed decisions. Postal Service management
concurred with our findings and recommendations.

In September 1998, we issued a Y2K report entitled "Year 2000 Initiative: Post
Implementation Verification" (Report No. IS-AR-98-003, dated September 29, 1998),
that involved an assessment of the efficiency and effectiveness of the process
implemented as an independent check on Postal Service remediation efforts. This
report recommended Postal Service modify its system certification and post
implementation verification procedures to improve the quality of systems sent to
verification as well as the process itself. Postal Service management concurred with
our findings and recommendations.

In July 1998, we issued a Y2K report, entitled "Year 2000 Initiative: Status of the
Renovation, Validation, and Implementation Phases" (Report No. IS-AR-98-002, dated
July 21, 1998), that involved a preliminary assessment of the renovation, validation, and
implementation phases of the Postal Service Year 2000 initiative. It contained
recommendations for improvement in several areas including accurately reporting the
compliance status of systems applications. Postal Service management concurred with
our findings and recommendations.

Our first Y2K report entitled "Year 2000 Initiative" (Report No. IS-AR-98-001), was
issued on March 31, 1998. During this review, we examined the awareness and
assessment phases of the Postal Service Y2K initiative and made recommendations for
improvement in several areas including assigning accountability to responsible
managers. Postal Service management concurred with our findings and
recommendations.

We also issued a letter report, entitled "Y2K Contract Indemnification Advisory Letter"
(Report No. CA-LA-98001, dated July 7, 1998). That letter addressed negotiations
between the Postal Service and a consulting firm regarding the Y2K program
management contract's indemnification clause. That letter contained suggestions to
Postal Service management regarding the indemnification issue.


                                                  20                                     Appendix A

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips




                                                  21                                     Appendix B

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips




                                                  22                                     Appendix B

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Suppliers, Mail Processing                                              IS-AR-00-001
 Equipment, Facilities, and Embedded Chips




Major Contributors to
This Report




                                                  23

                   This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                          Year 2000 Information and Readiness Disclosure Act.
